December 23, 2010

VINCENT H. DEVITO JR
VICE PRESIDENT, CONTROLLER

SUBJECT:      Draft Audit Report – Fiscal Year 2010 Financial Installation Audits –
              Post Offices, Stations, and Branches (Report Number FF-AR-11-005)

This report presents the results of our financial installation audits of 105 post offices,
stations, and branches for fiscal year (FY) 2010 (Project Number 10BD001FF000). We
conducted these audits in support of the independent public accounting (IPA) firm’s
overall audit opinions on the U.S. Postal Service’s financial statements and internal
controls over financial reporting. Our overall objective was to determine whether postal
retail units complied with nine key financial reporting controls related to accountability
examinations, master trust accounts, employee items, financial differences, unit
closeout procedures, payroll, Voyager payments, SmartPay payments, and contract
postal unit oversight. See Appendix A for additional information about this audit.

Post offices — which include 32,000 main offices, stations, and branches — are postal
retail units where the Postal Service processes transactions initially recognizing revenue
and expenses from operations. During FY 2010, the Postal Service recognized $17.5
billion in retail revenue. Control over financial transactions provides assurance that the
Postal Service recognizes all revenue and expense transactions in their financial
statements.

Conclusion

Based on the items we reviewed, Postal Service retail units overall did not comply with
all nine key financial reporting controls. Appendix B lists each issue and the number of
units where the issue was reported during FY 2010. Additionally, we reported $362,750
in monetary and $62,378 in other impact in our individual financial installation audit
reports.

Retail Controls

Postal Service personnel did not always comply with the nine key controls related to
postal retail unit operations.
Fiscal Year 2010 Financial Installation Audits –                               FF-AR-11-005
 Post Offices, Stations, and Branches


See Table 1 for a summary of the key controls.

                                   Table 1. Key Controls
                                                      Number of Locations
                           Key Controls                  (out of 105) with
                                                      Control Deficiencies
              Accountability Examinations 45
              Master Trust Accounts                              25
              Employee Items                                     16
              Financial Differences                              75
              Unit Closeout Procedures                           85
              Payroll 43
              Voyager 56
              SmartPay Purchase Card Payments                     8
              Contract Postal Unit Oversight                     15
               Source: OIG Analysis

For example, personnel at 75 of the 105 locations did not monitor and resolve all
financial differences. Financial differences are generally automated transactions arising
from differences detected between transactions processed at the individual units and
transactions processed in higher level systems. Resolving financial differences assures
that units are properly processing transactions and are aware of and correcting errors in
the accounting records. See Appendix B for a detailed analysis of the key controls and
tests performed. Generally, units were not complying with the controls because of
insufficient oversight or because employees overlooked performing certain aspects of
internal controls. The IPA used the results of these audits to assess the overall control
environment and determine the amount of testing they conduct in auditing the financial
statement balances.

We addressed the control issues in separate reports to unit and Postal Service district
managers and made recommendations to correct the internal control issues found.
District management’s comments to the individual reports were responsive to the
findings and recommendations. The actions taken or planned should correct the issues
identified at these installations. Appendix C lists the 105 installations we audited.

The U.S. Postal Service Office of Inspector General (OIG) reported similar compliance
issues in prior capping and installation audit reports related to completing accountability
examinations, monitoring customer account inactivity, and restricting access to Postal
Service information resources. The Postal Service has taken corrective action on these
issues by revising policy to update requirements, publishing Postal Bulletin articles to
provide clarification and guidance to field employees, and adding features and improved
controls to Point-of-Service software. The actions taken should correct the issues.

We discussed our observations and conclusions with management on
December 20, 2010. As we are not making recommendations in this report,
management determined there was no need to provide formal comments. We


                                                   2
Fiscal Year 2010 Financial Installation Audits –                              FF-AR-11-005
 Post Offices, Stations, and Branches


appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin Ellenberger, director,
Field Financial – East, or me at 703-248-2100.
     E-Signed by John Wiethop
 VERIFY authenticity with ApproveIt




for
John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

cc: Joseph Corbett
    Dean J. Granholm
    Julie S. Moore
    Steven R. Phelps
    Corporate Audit and Response Management




                                                   3
Fiscal Year 2010 Financial Installation Audits –                                                  FF-AR-11-005
 Post Offices, Stations, and Branches


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The OIG conducted financial field audits at revenue generating units such as post
offices and business mail entry units. We conducted these audits in support of the IPA’s
overall audit opinions on the U.S. Postal Service’s financial statements and internal
controls over financial reporting.

Post offices — which include 32,000 main offices, stations, and branches — are postal
retail units where the Postal Service initially recognizes revenue from operations. During
FY 2010, the Postal Service recognized $17.5 billion in retail revenue. Financial
activities at these installations include, but are not limited to, post office box and caller
service, money orders, payments,1 and postage sales. Field unit managers and
supervisors are responsible for ensuring that employees collect all revenue due the
Postal Service, account for revenue in a timely manner, and maintain the required
supporting documentation.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our overall objective was to determine whether postal retail units complied with nine key
financial reporting controls related to accountability examinations, master trust
accounts, employee items, financial differences, unit closeout procedures, payroll,
Voyager payments, SmartPay payments, and contract postal unit oversight.

To accomplish this objective, we conducted unannounced audit fieldwork at 105
statistically selected post offices, stations, and branches (units). We employed a
stratified random sample from a population of 22,637 units with retail revenue of more
than $50,000. These 105 units reported $323 million in revenue in FY 2009. Appendix C
lists the locations we audited and Illustration 1 shows our sample population of 22,637
locations and the 105 locations we audited.

We conducted this audit from October 2009 through December 2010 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our conclusions based on our audit
objective. We discussed our observations and conclusions with management officials
on December 20, 2010, and included their comments where appropriate.




1
  A generic term used in Handbook F-101, Field Accounting Procedures, October 2009, for tasks related to making
payments with eBuy or SmartPay, invoice payments, local payments, and temporary cash payments. It also includes
requirements such as invoicing and recurring payments.


                                                       4
Fiscal Year 2010 Financial Installation Audits –                                   FF-AR-11-005
 Post Offices, Stations, and Branches



PRIOR AUDIT COVERAGE

                                                           Report        Final Report
                           Report Title
                                                           Number            Date
       Fiscal Year 2009 Financial Installation Audit –
                                                         FF-AR-10-045 12/14/2009
       Post Offices, Stations, and Branches
       Fiscal Year 2008 Financial Installation Audit –
                                                         FF-AR-09-055 12/26/2008
       Post Offices, Stations, and Branches
       Fiscal Year 2007 Financial Installation Audit –
                                                         FF-AR-08-122 3/5/2008
       Post Offices, Stations, and Branches


The OIG reported similar compliance issues in prior audit reports related to completing
accountability examinations, monitoring customer account inactivity, and restricting
access to Postal Service information resources. The Postal Service took corrective
action on these issues. The actions taken should correct the issues.




                                                   5
Fiscal Year 2010 Financial Installation Audits –                                                                               FF-AR-11-005
 Post Offices, Stations, and Branches



                                                     Illustration 1: Map of Sample Population:
                                                 22,637 Postal Retail Units and 105 Units Audited2




2
    The illustration does not display sites located outside the continental United States. We conducted one audit in Hawaii.


                                                                                    6
Fiscal Year 2010 Financial Installation Audits –                                             FF-AR-11-005
 Post Offices, Stations, and Branches


                               APPENDIX B: DETAILED ANALYSIS

                                                                                              Number of
                                                                                              Locations
                                                                                             (out of 105)
                          Description of Control Deficiency                                  with Control
     (Bolded items represent the nine key Sarbanes-Oxley controls we evaluated in FY 2010)   Deficiencies
Key Control 1 – Accountability Examinations                                                  45
    The unit did not conduct required cash retained examinations for retail associates.           2
    The unit did not conduct required accountability examinations of unit cash reserve
                                                                                                  23
    accountabilities.
    The unit did not conduct required accountability examinations of unit reserve stamp
                                                                                                  19
    stock.
    The unit did not conduct required cash and stamp credit examinations.                         7
    The unit did not witness accountability examinations as required.                             9
Key Control 2 – Master Trust Accounts                                                        25
    The unit did not monitor or reconcile master trust account balances.                           7
    The unit did not monitor Business Reply Mail/Postage Due accounts for inactivity.             18
Key Control 3 – Employee Items                                                               16
    The unit did not monitor and clear outstanding employee items.                                16
Key Control 4 – Financial Differences                                                        75
    The unit did not monitor and resolve financial differences.                                   75
Key Control 5 – Unit Closeout Procedures                                                     85
    The closeout employee did not verify supporting documentation was available for
    information on the Postal Service (PS) Form 1412, Daily Financial Report, and                 17
    review appropriate reports and make required adjustments.
    The unit did not follow bank deposit procedures.                                              30
    Unit management did not review the postage validation imprinter activity report for
                                                                                                  26
    mismatch warnings and make corrections.
    The unit did not verify disbursement transactions were supported.                             77
    The unit did not use preferred payment methods for local disbursements.                       3
Key Control 6 – Payroll                                                                      43
    Unit management did not complete PS Form 1723, Assignment Order, to support
    higher-level duty authorizations.                                                             43
Key Control 7 – Voyager                                                                      56
    The unit did not update the master Personal Identification Number (PIN) list for the
                                                                                                  52
    Voyager card.
    The unit did not maintain all receipts for Voyager purchases.                                 20
    The unit had not conducted reconciliations of Voyager transactions.                           6
    The unit did not properly secure a copy of the Voyager PIN list.                              5
Key Control 8 – SmartPay Purchase Card Payments                                              8
    The cardholder or the approving official for the SmartPay Purchase Card did not
    verify, sign, and date purchase card statements to certify that bank statements were          6
    reconciled.
    The unit did not process requisitions through eBuy and obtain appropriate approvals
                                                                                                  5
    for purchases.




                                                       7
Fiscal Year 2010 Financial Installation Audits –                                             FF-AR-11-005
 Post Offices, Stations, and Branches

                                                                                              Number of
                                                                                              Locations
                                                                                             (out of 105)
                          Description of Control Deficiency                                  with Control
     (Bolded items represent the nine key Sarbanes-Oxley controls we evaluated in FY 2010)   Deficiencies
Key Control 9 – Contract Postal Unit (CPU) Oversight                                         15
    Unit management did not ensure that CPU stamp credit counts were conducted.                   4
    Unit management did not ensure that CPU credit examination results were
                                                                                                  4
    documented on PS Form 3368-P, Accountability Examination Record.
    Unit management did not ensure that CPU credit examination results were
                                                                                                  2
    documented on PS Form 3294-P, Cash and Stamp Stock Count and Summary.
    Unit management did not record overages or shortages in counts of the CPU stamp
                                                                                                  9
    stock credit.
    Unit management did not research and resolve the CPU’s outstanding employee
                                                                                                  1
    items.
    Unit management did not monitor and resolve financial differences issued to the
                                                                                                  10
    CPU.
    Unit management did not ensure the CPU's total accountability did not exceed its
                                                                                                  2
    bonded amount.




                                                       8
Fiscal Year 2010 Financial Installation Audits –                                                     FF-AR-11-005
 Post Offices, Stations, and Branches


         APPENDIX C: POST OFFICES, STATIONS, AND BRANCHES AUDITED
                      AND REPORTS ISSUED NATIONWIDE

                                                               FY 2009            Monetary
                  Report Title and Number                                                           Other Impact4
                                                               Revenue             Impact3

    1                                                         $22,896,725                    ——
            FF-AR-10-115

    2                                                           13,451,203              $4,105                     —
         FF-AR-10-009

    3                                                           11,265,325                   ——
         FF-AR-10-146

    4                                                           10,826,218                3,223                    —
         FF-AR-10-187

    5                                                           10,733,253                5,967 —
         FF-AR-10-106

    6                                                            9,655,751              49,670                     —
                         FF-AR-10-071

    7                                                            9,332,942                   ——
         FF-AR-10-055

    8                                                            9,059,972                6,864                    —
         FF-AR-10-126

    9                                                            8,560,197              74,786 $9,506
                           FF-AR-10-213

    10                                                           8,514,693                2,826                    —
            FF-AR-10-070

    11                                                           7,919,634              16,633 —
             FF-AR-10-039

    12                                                           7,884,325                   —                     —
            FF-AR-10-042

    13                                                           7,791,331                1,977 —
                   FF-AR-10-113

    14                                                           7,496,508              11,502                     —
            FF-AR-10-086

    15                                                           7,403,846                6,264 6,013
                                 FF-AR-10-096

    16                                                           7,289,860                   —                     —
                      FF-AR-10-169

    17                                                           6,967,364                   ——
         FF-AR-10-144

    18                                                           6,731,559                   —                     —
                           FF-AR-10-020



3
  Depending on the specific nature of the findings involved, we reported these amounts as recoverable questioned
costs, unrecoverable questioned costs or recoverable revenue.
4
  Depending on the specific nature of the findings involved, we reported these amounts as assets at risk or
disbursements at risk.


                                                         9
Fiscal Year 2010 Financial Installation Audits –                                      FF-AR-11-005
 Post Offices, Stations, and Branches


                                                        FY 2009      Monetary
                 Report Title and Number                                             Other Impact4
                                                        Revenue       Impact3

 19                                                     $6,450,007              ——
       FF-AR-10-108

 20                                                      6,258,539       $1,444                 —
       FF-AR-10-103

 21                                                      6,227,222              ——
       FF-AR-10-031

 22                                                      6,035,994        4,848                 —
       FF-AR-10-202

 23                                                      6,005,201       15,824 —
       FF-AR-10-011

 24                                                      5,888,207       16,973                 —
       FF-AR-10-002

 25                                                      5,784,785        4,203 $11,48           4
       FF-AR-10-129

 26                                                      5,556,945        4,390                 —
       FF-AR-10-056

 27                                                      5,501,150              ——
       FF-AR-10-034

 28                                                      5,161,822              —               —
       FF-AR-10-022

 29                                                      4,941,863              ——
                          FF-AR-10-163

 30                                                      4,900,187        1,004                 —
                               FF-AR-10-100

 31                                                      4,063,851        4,500 —
       FF-AR-10-208

 32                                                      3,923,315              —               —
       FF-AR-10-029

 33                                                      3,595,535        7,062 —
       FF-AR-10-191

 34                                                      3,372,946        7,325                 —
       FF-AR-10-001

 35                                                      2,467,623              ——
       FF-AR-10-137

 36                                                      2,260,811        3,838                 —
       FF-AR-10-124

 37                                                      1,982,244       10,710 —
                      FF-AR-10-110

 38                                                      1,918,593        1,711                 —
       FF-AR-10-098

 39                                                      1,865,280              ——
       FF-AR-10-220




                                                   10
Fiscal Year 2010 Financial Installation Audits –                                          FF-AR-11-005
 Post Offices, Stations, and Branches


                                                            FY 2009      Monetary
                 Report Title and Number                                                 Other Impact4
                                                            Revenue       Impact3

 40                                                         $1,841,799       $1,256 —
       FF-AR-10-186

 41                                                          1,809,225              —               —
       FF-AR-10-192
                                                   ,
 42                                                          1,783,819       62,058 $24,17           1
            FF-AR-10-130

 43                                                          1,777,391        3,995                 —
       FF-AR-10-016
 44                                   FF-AR-10-105           1,754,222              ——

 45                                                          1,745,842              —               —
       FF-AR-10-138
                                            ,
 46                                                          1,709,959        1,207 —
       FF-AR-10-043

 47                                                          1,684,198        2,141                 —
       FF-AR-10-091

 48                                                          1,661,715              ——
       FF-AR-10-087

 49                                                          1,645,057        5,359                 —
       FF-AR-10-038

 50                                                          1,589,802              ——
       FF-AR-10-131

 51                                                          1,581,231              —               —
                       FF-AR-10-156

 52                                                          1,557,939              ——
                    FF-AR-10-111

 53                                                          1,546,152        1,448                 —
       FF-AR-10-090

 54                                                          1,524,144              ——
       FF-AR-10-155

 55                                                          1,521,619              —               —
       FF-AR-10-014

 56                                                          1,375,168              ——
                    , FF-AR-10-184

 57                                                          1,304,527              —               —
       FF-AR-10-006

 58                                                          1,256,989              ——
       FF-AR-10-116

 59                                                          1,242,901              —               —
       FF-AR-10-017

 60                                                          1,236,304        2,211 —
            FF-AR-10-157

 61                                                          1,227,336              —               —
       FF-AR-10-104




                                                       11
Fiscal Year 2010 Financial Installation Audits –                                         FF-AR-11-005
 Post Offices, Stations, and Branches


                                                           FY 2009      Monetary
                 Report Title and Number                                                Other Impact4
                                                           Revenue       Impact3

 62                                                        $1,221,693              ——
                                       FF-AR-10-114

 63                                                         1,178,939              —               —
            FF-AR-10-118

 64                                                         1,156,040              ——
       FF-AR-10-177

 65                                                         1,026,213              —           $2,961
       FF-AR-10-148

 66                                                          963,094               ——
       FF-AR-10-121

 67                                                          928,064        $1,593                 —
       FF-AR-10-162

 68                                                          882,338               ——
            FF-AR-10-012

 69                                                          773,532               —               —
       FF-AR-10-153

 70                                                          737,317               ——
       FF-AR-10-200
 71                                    FF-AR-10-005          704,512               —               —

 72                                                          670,783               ——
       FF-AR-10-003

 73                                                          670,462               —            2,207
       FF-AR-10-165

 74                                                          653,898         3,076 515
                     FF-AR-10-221

 75                                                          643,904         4,550                 —
       FF-AR-10-185

 76                                                          613,433               ——
       FF-AR-10-159

 77                                                          599,534               —               —
       FF-AR-10-032

 78                                                          592,043               — 5,521
       FF-AR-10-101

 79                                                          580,479         1,127                 —
       FF-AR-10-171

 80                                                          542,847         2,830 —
       FF-AR-10-094

 81                                                          477,208               —               —
       FF-AR-10-008

 82                                                          461,832               ——
       FF-AR-10-182

 83                                                          456,601               —               —
       FF-AR-10-193




                                                      12
Fiscal Year 2010 Financial Installation Audits –                                            FF-AR-11-005
 Post Offices, Stations, and Branches


                                                             FY 2009       Monetary
                 Report Title and Number                                                   Other Impact4
                                                             Revenue        Impact3
                                                   ,
 84                                                            $445,726               ——
       FF-AR-10-093

 85                                                             437,465               —               —
                           FF-AR-10-089

 86                                                             321,626               ——
       FF-AR-10-194

 87                                                             280,665               —               —
       FF-AR-10-061

 88                                                             280,614               ——
       FF-AR-10-172

 89                                                             272,141               —               —
       FF-AR-10-139

 90                                                             267,982               ——
                        FF-AR-10-099

 91                                                             217,845               —               —
       FF-AR-10-037

 92                                                             207,413               ——
       FF-AR-10-004

 93                                                             197,499        $2,250                 —
       FF-AR-10-128

 94                                                             164,275               ——
       FF-AR-10-057

 95                                                             135,609               —               —
       FF-AR-10-160

 96                                                             119,931               ——
       FF-AR-10-183

 97                                                             108,359               —               —
       FF-AR-10-136

 98                                                              97,755               ——
       FF-AR-10-203

 99                                                              90,743               —               —
       FF-AR-10-211

 100                                                             89,823               ——
       FF-AR-10-119

 101                                                             86,389               —               —
       FF-AR-10-217
 102                                                             79,111               ——
            FF-AR-10-092
 103                                                             59,162               —               —
       FF-AR-10-149
 104                                                             55,821               ——
       FF-AR-10-023
 105                                                             50,840               —               —
       FF-AR-10-143
                            Totals                          $322,921,725     $362,750            $62,378




                                                       13
